<html>
<title> - ECSTASY: A GROWING THREAT TO THE NATION'S YOUTH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





            ECSTASY: A GROWING THREAT TO THE NATION'S YOUTH

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2002

                               __________

                           Serial No. 107-229

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

88-329              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
       Nicholas P. Coleman, Counsel and Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2002...............................     1
Statement of:
    Hutchinson, Asa, Administrator, Drug Enforcement 
      Administration; and Dr. Glen R. Hanson, Acting Director, 
      National Institute on Drug Abuse...........................     7
    Patton, Kate, Kelley McEnery Baker Foundation; Lynn Smith; 
      and Dr. Terry Horton, medical director, Phoenix House......    39
Letters, statements, etc., submitted for the record by:
    Hanson, Dr. Glen R., Acting Director, National Institute on 
      Drug Abuse, prepared statement of..........................    22
    Horton, Dr. Terry, medical director, Phoenix House, prepared 
      statement of...............................................    56
    Hutchinson, Asa, Administrator, Drug Enforcement 
      Administration, prepared statement of......................    11
    Patton, Kate, Kelley McEnery Baker Foundation, prepared 
      statement of...............................................    43
    Smith, Lynn, prepared statement of...........................    50
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3

 
            ECSTASY: A GROWING THREAT TO THE NATION'S YOUTH

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Dan Davis of 
Illinois, and Jo Ann Davis of Virginia.
    Staff present: Nicholas P. Coleman, counsel and 
professional staff member; Roland Foster, professional staff 
member; Nicole Garrett, clerk; and Julian A. Haywood, minority 
counsel.
    Mr. Souder. The subcommittee will now come to order.
    I would like to thank everybody for coming. I look forward 
to this hearing this afternoon.
    Unfortunately, as I am sure most of you know here, it does 
not take an expert to know that the abuse of the drug ecstacy 
among young people in America continues to increase to 
unprecedented and alarming levels. You can look at the 
countless newspaper articles from virtually every city and town 
across America describing the concern of parents and educators 
for the safety of children and teens. You can look at a popular 
culture that glamorizes the ``club scene'' that provides much 
of the base for the spread of ecstasy use, or you can look at a 
television program like HBO's ``Small Town Ecstasy,'' which 
showed a California father who not only actively permitted and 
encouraged his children to use ecstasy, but joined them.
    What may not be readily apparent to the public or to our 
impressionable children, however, is the growing severity of 
the ecstacy problem for our country, our society, and, most 
importantly, for the victims who use the drug and their 
families. It should not have been much of a surprise that one 
of the last scenes in ``Small Town Ecstasy'' took place in a 
doctor's office, where one of the kids learned that he had a 
form of brain damage. And yet there are some so-called 
scientists who even today try to perpetuate the myth that 
ecstasy is not harmful or even, bizarre as it may seem, has 
some sort of therapeutic value.
    Anecdotal evidence aside, the hard numbers and the science 
similarly tell us that there is real cause for alarm and 
heightened action on the part of families, law enforcement, and 
health care providers. The new National Household Survey on 
Drug Abuse, released 2 weeks ago, shows that the most dramatic 
increase in all illegal drug use has been from ecstasy. In 
2000, an estimated 1.9 million Americans used ecstasy for the 
first time, compared to 0.7 million in 1998. Thus, usage has 
tripled in just 2 years. Similarly, ecstasy linkage to 
emergency room visits has almost doubled from 2,850 in the year 
1999 to 5,542 in the year 2001. Some 9.1 percent of college 
students, 9.2 percent of twelfth graders, and 6.2 percent of 
eighth graders reported that they have used ecstasy in the past 
year.
    But behind all these cold numbers, we return to real, 
stark, and immediate problems that require prompt action from 
the Government and the drug control community. For starters, we 
must educate American parents and youth of the reality and the 
consequences behind the so-called glamour drug of ecstasy. One 
such effort was undertaken over the summer by the Partnership 
for a Drug Free America and incorporated into the Office of 
National Drug Control Policy's National Media Campaign. I would 
now like to take 2 minutes to screen four advertisements that 
have been running across America, and I commend the Partnership 
for its excellent work in this area.
    [Video presentation.]
    Mr. Souder. At today's hearing we will hear from two panels 
to expand upon the fundamental messages that were so eloquently 
conveyed in these ads. On our first panel, we are honored to 
once again have our former colleague with us, the distinguished 
head of the Drug Enforcement Administration, Mr. Asa 
Hutchinson. He will testify with respect to DEA's broad efforts 
to control ecstasy abuse in the United States, and we very much 
appreciate his leadership on this issue and so many other 
critical issues during his still-short tenure at DEA. The 
subcommittee will also receive scientific testimony from Dr. 
Glen Hanson of the National Institute on Drug Abuse on recent 
findings from NIDA and the NIH with respect to the significant 
harmful effects which ecstasy use has on our children.
    On our second panel, we will move from the national level 
to the community level. We will hear personal testimony from 
Ms. Kate Patton and Ms. Lynn Smith on the devastating impact of 
ecstasy on users and their families. We will also hear from Dr. 
Terry Horton of the Phoenix House regarding the challenge of 
drug treatment for ecstasy abusers.
    I thank you all once again for coming and look forward to 
the testimony on this important issue.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.001
    
    [GRAPHIC] [TIFF OMITTED] T8329.002
    
    [GRAPHIC] [TIFF OMITTED] T8329.003
    
    Mr. Souder. I would now like to recognize Mr. Cummings, our 
ranking member, for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. One of the 
most alarming trends in the area of illegal drug consumption in 
America is the growing use of ecstasy and other so-called 
``club drugs'' among our Nation's youth.
    A thriving youth subculture has developed around the all-
night ``rave'' parties and dance clubs where these drugs are 
widely used by teens and young adults to enhance sensory 
perception and boost stamina. What makes the trend so dangerous 
is the fact that most users seem to believe that these drugs 
are soft or benign. In fact, there is simple scientific 
evidence that they are not benign. Indeed, just like heroin or 
cocaine, these drugs can be lethal in large doses or when 
combined with other toxic substances such as alcohol or other 
illicit drugs.
    Moreover, in addition to the immediate short-term 
psychological and physical effects they induce, these drugs 
appear to have long-term, irreversible effects on brain 
function, permanently impairing thought and memory. Apart from 
the dangers that result from voluntary use of club drugs, the 
malicious abuse of GHB and petamine as ``date rape'' drugs, 
employed to sedate unsuspecting victims, provides additional 
cause for alarm.
    It should concern all of us that the ``club drug'' trend 
shows no signs of letting up. On the contrary. National surveys 
on drug abuse show that the use of these drugs has been 
steadily on the rise since at least 1992, and that it continues 
to increase despite a growing recognition that the use of 
``club drugs'' involve serious health risks. The trend is also 
spreading demographically. Once concentrated among middle-and 
upper-class predominantly white users, ecstasy is finding its 
way into America's inner-cities.
    We will hear today from Administrator Asa Hutchinson about 
the Drug Enforcement Administration's efforts to combat the 
``club drug'' trend through interdiction and community 
outreach. We will hear from Acting Director Glen Hanson about 
the National Institute on Drug Abuse's efforts to conduct, 
evaluate, and disseminate scientific research on the harmful 
effects of ``club drugs.'' Lynn Smith will give us a personal 
perspective of a former user of ecstasy. Kate Patton lost her 
daughter Kelly tragically to an ecstasy overdose and will tell 
us about her efforts to enlighten other parents about the 
dangers ``club drugs'' pose to young people. Dr. Terry Horton, 
Medical Director of Phoenix House in New York City, will 
discuss the unique characteristics of the ``club drug'' 
phenomenon, including the spread of club drugs to the inner-
city.
    As always, Mr. Chairman, I commend you for holding this 
important hearing and for your commitment to this important 
issue. I look forward to hearing the testimony of all of our 
witnesses today, and I want to thank all of you for taking time 
out of your busy schedules to be with us so that we can make 
every effort to address this issue as best as we possibly can. 
Thank you very much.
    Mr. Souder. Thank you.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions to the hearing record and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and the 
witnesses be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Would the witnesses on the first panel please rise and 
raise your hands and I will administer the oath. As an 
oversight committee, it is our standard practice that all of 
our witnesses are asked to testify under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    The witnesses will now be recognized for opening 
statements. We will begin with Administrator Hutchinson. We 
will allow 10 minutes, with some flexibility, for your opening 
statements.

 STATEMENTS OF ASA HUTCHINSON, ADMINISTRATOR, DRUG ENFORCEMENT 
   ADMINISTRATION; AND DR. GLEN R. HANSON, ACTING DIRECTOR, 
                NATIONAL INSTITUTE ON DRUG ABUSE

    Mr. Hutchinson. Thank you Chairman Souder and Ranking 
Member Cummings for both your opening statements and your 
interest in this issue and your conduct of this hearing today. 
Clearly, this is one of the most dangerous threats emerging on 
America's youth today, both ecstasy and other club drug abuse.
    MDMA, commonly referred to as ecstasy, is a deceptively 
dangerous drug. Once MDMA was limited primarily to the ``rave 
club'' scene, but we have certainly seen that it is readily 
available on the street and it is just as likely to be peddled 
nearby schools as it is in a club scene. In making a couple of 
observations, I would describe it as the No. 1 drug problem of 
urban youth today. Second, there has been an explosion in 
demand by teens and young adults, as indicated by the DEA 
seizures, which are demonstrated on the chart over to the left, 
which shows the DEA's seizures of ecstasy have exceeded 9 
million dosage units last year.
    Another problem that we see with ecstasy is the 
distributors employ very savvy marketing techniques such as 
creative dye stamps in colors and leaflets boasting of security 
in different events of alcohol-free environments when in many 
instances it is an environment that is very open to the drug 
culture, if not ecstasy being promoted. And finally, there is a 
false perception that the ecstasy is safe, which is a dangerous 
perception. It is promoted by organizations such as Dance Safe 
that tries to encourage young people that this can be handled 
in a safe fashion. That is very dangerous information. There 
has been numerous instances of overdoses and deaths as a result 
of the use of ecstasy.
    Clearly, not everyone that attends a rave does so for the 
drugs. But drug use and abuse is a common element of raves. I 
know because I have gone out and seen it for myself. Last 
weekend I visited a rave club in the Washington area and 
observed first-hand the dangers in public health issues 
associated with raves. Despite what appeared to be significant 
security precautions, you did not have to be in the club very 
long before you observe what appears to be drug transactions 
taking place in the open.
    Ecstasy, a Schedule I drug, is the most widely abused club 
drug in America. It allows the users to experience both 
hallucinogenic and stimulant effects which last several hours. 
Mr. Cummings mentioned other club drugs such as GHB and GBL, 
and many times ecstasy is taken in combination with these other 
drugs, one, for the up, the stimulant, and the other for the 
depressant. And so the drug mixture is a very serious health 
problem.
    I appreciate the playing of the ads, Mr. Chairman. I 
applaud ONDCP's advertisements which have raised the awareness 
of the ecstasy crisis. Clearly, it tries to counter the 
misinformation out there that somehow this is a ``love'' or a 
``hug'' drug. The harm is clearly demonstrated by the emergency 
room episodes, as demonstrated on the chart on the left, which 
shows that according to the Drug Abuse Warning Network 
nationwide hospital emergency room mentions for ecstasy rose 
from 637 in 1997 to over 5,000 last year. Teenagers and young 
adults have been the primary users of ecstasy. Some 77 percent 
of the ecstasy emergency room mentions were attributed to 
patients who were 25 years old or younger.
    Now if we go to the production of ecstasy, this is a drug 
that is not produced in the United States in any significant 
amount. Ecstasy is synthetically manufactured in clandestine 
laboratories predominantly in the Netherlands and Belgium which 
produce the vast majority of ecstasy consumed worldwide, 
estimates being 80 percent of the world production of ecstasy 
occurs in those countries. I recently travelled to the 
Netherlands to meet with the Dutch police officials. Certainly 
I encouraged them to take more aggressive enforcement actions. 
The Dutch police have initiated a new program which centers 
around the synthetic drug unit to target ecstasy and synthetic 
drug organizations and they have allocated approximately $90 
million in support of this initiative. This includes five units 
that enforcement activities will be carried out throughout the 
Netherlands. We hope that it brings some measure of success.
    The profit margin is frightful as to who it encourages to 
get into this business. A typical clandestine lab produces 20 
to 30 kilograms of ecstasy per day. One kilogram yields 
approximately 7,000 tablets. At $20 to $30 per tablet, one 
kilogram would conservatively generate $140,000. If it was $30 
a tablet, it would be $210,000.
    Currently, ecstasy traffickers utilize major airports in 
Europe as transshipment points for ecstasy destined for the 
United States. I do have a chart here that reflects the 
trafficking patterns for MDMA coming to the United States. As 
you can see, it primarily comes from Europe. But it comes 
through various means, sometimes via South America, into the 
United States and so there are a number of different routes 
that we have to watch looking for the MDMA traffickers. Los 
Angeles, New York, Miami are currently the major gateway cities 
for the influx of ecstasy and law enforcement efforts have 
increased in those airports and from an investigatory 
standpoint.
    Even though they are produced through labs in the 
Netherlands and Belgium area, the organizations that transport 
those are many times of Israeli or Russian organized criminal 
entities. They dominate the ecstasy market in the United 
States. Other drug trafficking organizations based in Colombia, 
the Dominican Republic, Asia, and Mexico have entered the 
ecstasy trade. We have noted intelligence that indicates 
cocaine from Colombia is being shipped to Europe in exchange 
for MDMA. So that opens up the market for the Colombian 
traffickers, which is certainly an alarming fact for anyone who 
has followed their involvement in recent years.
    The DEA is engaged in some very significant operations. 
Just to name a couple of them, in August 2001 we culminated 
Operation Green Clover, a major operation that netted dozens of 
arrests, 85,000 tablets of ecstasy, and $1.3 million in 
currency. It came to public attention because the ecstasy 
killed a 16 year-old Brittany Chambers, who took one ecstasy 
tablet on her 16th birthday. After a 2-year investigation, we 
expanded that operation and really brought it down to the major 
traffickers that ultimately brought in that ecstasy with the 
green clover logo.
    That same month we concluded another investigation, 
Operation Rave I and II, which was coordinated by the Special 
Operations Division, arresting 247 individuals, seizure of 7 
million tablets of ecstasy, $2 million in currency, and over $1 
million in other assets. It was a cooperative effort with our 
international partners, the Israeli National Police, the German 
National Police, and numerous European partners.
    More recently, less than a month ago in August of this 
year, a Federal grand jury in Houston, Texas returned two 
indictments charging 34 individuals and two corporations with a 
variety of drug and money laundering offenses, including the 
distribution of more than 1 million ecstasy tablets.
    And so although ecstasy is the most popular club drug, as I 
mentioned before and as Ranking Member Cummings mentioned, 
there are other club drugs, such as GHB and its analogues, 
commonly used in conjunction with ecstasy. GHB is a central 
nervous system depressant which was banned by the FDA in 1990. 
In the year 2000, the DEA documented 71 GHB-related deaths and 
seized 17 GHB laboratories with State and local law 
enforcement. It has been used in the commission of sexual 
assaults because it renders the victim incapable of resisting 
and may cause memory problems that could complicate case 
prosecution because they cannot remember the experience or the 
terror that happened to them.
    Today, just a few hours before this hearing, Attorney 
General John Ashcroft and I announced the conclusion of 
Operation Web Slinger, a 2-year investigation to combat drug 
trafficking on the Internet. This investigation targeted four 
distribution groups who distributed date rape drugs GHB, GBL, 
and one for butanedyle, or BD, on the Internet. This was in 
four major cities, four different Internet operations in which 
they were marketing what appeared to be industrial solvents, 
cleaning solvents, and there is no mention on the Internet site 
that this drug could be used for human consumption, but in fact 
it was marketed for human consumption. There is at least one 
death that was attributed to that. We have arrested over 100 
individuals yesterday in connection with that national/
international operation.
    The DEA and our law enforcement partners continue to focus 
on the enforcement aspect of MDMA trafficking. The combination 
of what we are doing in the enforcement arena with what groups 
like this committee is doing in the education arena hopefully 
will make a difference and will help get the message out to our 
young people that it is extraordinarily dangerous. This is an 
example of a drug that is being marketed through drug 
availability. Demand is not everything in this particular case 
because availability created the demand, and that was part of 
the marketing strategy targeting our young people. We have got 
to be able to reverse the tide for that. Thank you for this 
committee's attention to this and your interest in this 
subject.
    [The prepared statement of Mr. Hutchinson follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.004
    
    [GRAPHIC] [TIFF OMITTED] T8329.005
    
    [GRAPHIC] [TIFF OMITTED] T8329.006
    
    [GRAPHIC] [TIFF OMITTED] T8329.007
    
    [GRAPHIC] [TIFF OMITTED] T8329.008
    
    [GRAPHIC] [TIFF OMITTED] T8329.009
    
    [GRAPHIC] [TIFF OMITTED] T8329.010
    
    [GRAPHIC] [TIFF OMITTED] T8329.011
    
    [GRAPHIC] [TIFF OMITTED] T8329.012
    
    Mr. Souder. Thank you very much.
    Dr. Hanson.
    Dr. Hanson. Chairman Souder and distinguished members of 
the subcommittee, I want to thank you for the opportunity to 
come and share with you some of the latest scientific findings 
about MDMA or ecstasy. I am Dr. Glen Hanson. I am the Acting 
Director of the National Institute on Drug Abuse. This is a 
component of the National Institutes of Health.
    The timing of this hearing is particularly relevant given 
some of the new data that has been released by SAMSHA, which 
you referred to, and data from NIDA as well that MDMA continues 
to be a very popular drug especially among students and young 
adults and it continues to attract new users. The initiation of 
the MDMA use has been rising steadily since the early 1990's 
and currently more than 8 million young people have used MDMA 
sometime during their lifetime.
    As you mentioned, the demographics of MDMA use is changing 
and this is very disturbing. New populations are starting to 
use it. It is being used beyond the rave scene or rave 
environment. It is being used on a daily basis and being used 
in homes and in other settings. This indicates a process of 
dependence and addiction that goes beyond just recreational 
use.
    Despite what some of its users, some of the public media, 
and, as you mentioned, even some researchers suggest, 3,4-
methylenedioxymethamphetamine, or ``ecstasy,'' clearly has 
substantial risks associated with its use. There is a large 
body of scientific evidence to support this. MDMA is not benign 
and it is not a harmless drug. The research demonstrates that 
MDMA can potentially cause serious short-and long-term 
physiological and psychological consequences. The overwhelming 
message of a conference which we held last year from some of 
the leading scientists in MDMA research is that MDMA can be 
extremely dangerous. There are some individuals where even a 
single exposure can cause serious consequences, and on occasion 
has even caused death. Repeated use of MDMA, moderate or to 
intense use, has been shown to cause damage to critical brain 
cells which can affect memory and other cognitive functions. 
These effects have been demonstrated very clearly in laboratory 
animals over the last 10 to 15 years and are being confirmed in 
human studies as well.
    Research shows that drugs sold to individuals as ecstasy 
often times contain more substances than just ecstasy. It is 
not unusual to find other potentially harmful drugs included, 
such as methamphetamine, cocaine, ephedrine, dextromethorphan, 
an over-the-counter cough suppressant, DCP, Ketamine, LSD, etc. 
The fact that so many of these tablets are really drug 
combinations makes the problem even more difficult and more 
complex to deal with in terms of treatment as well as 
prevention.
    MDMA is a unique drug pharmacologically. It does have 
characteristics of both stimulants as well as hallucinogens. As 
was mentioned, its acute effects last for hours, depending on 
the dosage, and users report distorted time perception as well 
as enhanced sensory input while under its influence. The 
stimulant properties can cause substantial cardiovascular 
stimulation. It can elevate heart rate, it can increase blood 
pressure, it can cause arrhythmias in the heart, it can 
disabled the body's ability to regulate its own temperature 
which can be very serious, especially in an environment such as 
a rave or a club where it is very warm and engaging in 
strenuous activity for extended periods of time can result in 
life-threatening hyperthermia or elevated body temperature. It 
can also cause serious dehydration, hypertension, and even 
kidney and heart failure in susceptible people.
    Like other stimulants, MDMA has the potential to cause 
addiction. This has been an issue of some discussion in the 
past. Recently, a study demonstrated that the majority of users 
of ecstasy meet the diagnostic criteria for abuse and 
dependance. And this goes back to the issue of a changing 
demographics and changing patterns of use. We are seeing more 
intense and more frequent use which suggests these addictive 
patterns.
    The brain's mechanisms whereby MDMA exerts its effect are 
critical to understanding both its short-and long-term 
consequences. And without getting too complicated or 
sophisticated, let me just say that MDMA is known to cause 
dramatic effects on a brain chemical called serotonin. 
Serotonin is a critical messenger molecule that brain cells use 
to exert their effects and send messages. It is important in 
exerting effects such as sleep, emotion, mood, memory, pain, 
and appetite. Moderate to high MDMA use depletes the brain of 
its serotonin, it causes free radical production, and free 
radicals are very destructive molecules that can damage tissue 
and cells. So it is clear that MDMA has the capacity and the 
properties of killing brain cells under certain kinds of 
conditions.
    We do not know completely to what extent the brain can 
recovery from this damage. This is still an active area of 
investigation by scientists. But you can see in some animal 
studies, and that is shown on this poster, this researcher in 
this study looked at monkeys or nonhuman primates. They 
administered the drug twice a day for 4 days, and then they 
observed for a period of a couple of weeks, and then 7 years. 
The white squiggly lines represent brain cells that have the 
serotonin, that chemical messenger, in them. You can see on the 
left the concentration is fairly high. But on the middle panel, 
most of that has been wiped out in this particular brain 
region. After 7 years, there is some recovery but it is not 
returned to its normal levels. This is a monkey, this is a 
nonhuman, but we see a similar pattern in other laboratory 
animals. We understand the mechanism underlying why this 
happens and it is of great concern to us that some similar 
things may be happening in humans that are using moderate to 
high doses of this drug.
    In closing, I would like to say that as someone who has 
spent over 15 years of my own scientific research career 
studying the pharmacology and neurotoxic effects of psycho-
stimulants, and that includes MDMA or ecstasy, I am convinced 
from my own personal research and the research of my colleagues 
that moderate use of MDMA can damage brain cells, and likely 
has significant consequences on brain functions and on 
behavior.
    Thank you very much. I will be happy to respond to any 
questions you might have.
    [The prepared statement of Mr. Hanson follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.013
    
    [GRAPHIC] [TIFF OMITTED] T8329.014
    
    [GRAPHIC] [TIFF OMITTED] T8329.015
    
    [GRAPHIC] [TIFF OMITTED] T8329.016
    
    [GRAPHIC] [TIFF OMITTED] T8329.017
    
    [GRAPHIC] [TIFF OMITTED] T8329.018
    
    [GRAPHIC] [TIFF OMITTED] T8329.019
    
    [GRAPHIC] [TIFF OMITTED] T8329.020
    
    [GRAPHIC] [TIFF OMITTED] T8329.021
    
    [GRAPHIC] [TIFF OMITTED] T8329.022
    
    Mr. Souder. I thank you both for your powerful testimony.
    We have been joined by Congressman Davis of Illinois and 
Congresswoman Davis of Virginia. I will start out with some 
questions here under the 5-minute rule.
    First, Administrator Hutchinson, in trying to understand 
the production of ecstasy in the Netherlands and Belgium, could 
you give a little more why it would be concentrated there and 
why it has not dispersed more, why we do not have more 
production in the United States, and whether you think that 
will change.
    Mr. Hutchinson. One of the reasons it has not occurred in 
the United States in terms of the labs that would produce MDMA 
is because we have very strict regulation of the precursor 
chemicals that go into it. We have strong controls that has 
diminished that capability. In addition, the pill presses that 
are used to manufacture the MDMA, that is not readily available 
for those purposes yet here in the United States. It is much 
more difficult here.
    In regards to the Netherlands, you have a combination of 
factors. You have, one, a law enforcement structure that has 
not been historically strong. You have a permissive society 
when it comes to drug use. You also have chemists who have 
congregated there that have developed this industry. So a 
combination of those factors. One of the chemicals that is used 
as a precursor or to make MDMA is PMK, and that comes primarily 
out of China. And to give you an illustration of the problem 
they face there, they do not have an exchange of information 
for these precursor chemicals coming from China because they 
are concerned about the human rights violations in China and 
will not have any information exchange. So we are having to act 
as an intermediary on that.
    So, it is a very slow process engaging and pushing the law 
enforcement community there to get a handle on this. Hopefully, 
their synthetic drug unit will be a step in the right 
direction.
    Mr. Souder. Is the government of Belgium becoming more 
aggressive too, or is this relatively new there as compared to 
Holland?
    Mr. Hutchinson. I think it is a spill-over effect from what 
we see in Holland. Clearly, Europe, in particular the 
Netherlands, realizes that they have a problem with ecstasy 
production. It is not considered a soft drug there. They have 
not moved toward decriminalization of it in any way. They are 
very focused on the problem that they are right now, investing 
a substantial amount of money, I believe it is $90 million, 
toward enforcement activities. So hopefully that will change.
    Mr. Souder. There has been a lot of times in the American 
media this kind of romance of how Holland's non-harmful drug 
policies actually not only have spilled into the United States 
and around the world, they have gone into Belgium where they 
did not have those policies and undermined their laws, which is 
partly why there is a new government in Holland. Do you get the 
impression that the new leadership is more committed to trying 
to tackle these problems?
    Mr. Hutchinson. Yes, I do. I think we have to wait and see 
but I think there is potential for a shift in drug policy. And 
certainly on the enforcement side, I believe that they have 
been cooperative. I hope that they will be more cooperative.
    Mr. Souder. You had a reference in your written testimony 
to Indonesia and them increasing as a potential production 
point. Did that seem to be headed toward the United States, or 
is there a growing market in Asia?
    Mr. Hutchinson. There is a growing market in Asia. Right 
now there is limited nexus between Indonesia and the United 
States. But it is something that we are watching very closely 
because that would open up a whole new arena in terms of 
production.
    Mr. Souder. Thank you. I have plenty of additional 
questions but I will yield at this point to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Administrator Hutchinson, let me ask you this. Do you find, 
the DEA, when you talk about some arrests that have been made, 
do you find that the people who are dealing in ecstasy also 
deal in other drugs or is it pretty much zeroed in on and 
specialized just in ecstasy? Are you finding any connections 
when you arrest these people?
    Mr. Hutchinson. Yes. In a number of instances today and 
yesterday, as our agents made arrests targeting the GHB and 
those type of chemicals, we also found methamphetamine in 
substantial quantities, we found other drugs at these sites. It 
is not always that case. So some individuals believe this is a 
niche market for them and they are engaged in this network of 
club drugs. Others are looking for any drug that brings a 
profit and so you will see them shifting. But, yes, in the 
arrests that we accomplished in this operation, in many 
instances we found other drugs than simply these club drugs.
    Mr. Cummings. Is there any reason why ecstasy started off 
as a so-called club drug or a rave drug as opposed to drugs 
sold on the corner of inner-city streets? I mean, starting out, 
was it the cost, the easy way to distribute them? Do you have 
any theory on that?
    Mr. Hutchinson. Well, I think it was a marketing technique. 
That is where the suppliers targeted as having a ready audience 
of teenagers, of people who were engaging in some very frenetic 
activity and that is a good market for the sale of the MDMA. 
And so it was targeted there. But it did not take long for it 
to expand way beyond that. Many of the tragic cases that we see 
today, from Brittany Chambers to others, it was MDMA that was 
purchased not at a rave scene but it was on the street or 
through some other associate. So I think we make a mistake if 
we only talk about MDMA in terms of the party scene. As you 
said, that is where it started and had its first impact, but it 
has spread far beyond that.
    Mr. Cummings. And what are we doing to address that spread? 
Do not get me wrong, I am not trying to minimize the fact that 
it is out there anywhere, but I am just wondering what are we 
doing to try to make sure it does not continue to spread all 
over the place? And I also want you to talk about the money 
involved. I mean, this is a phenomenal amount of money when you 
broke it down to how much this stuff yields. And what makes you 
think that when you are dealing with that kind of money that 
folks will not find a way. It sounds like a person could become 
a millionaire almost overnight.
    Mr. Hutchinson. Well, they can. Whenever you can 
manufacture it for 25 cents and sell it for $25, there is an 
enormous profit margin. And drug traffickers that have 
traditionally been engaged in cocaine may look to this because 
of the profit margin in it.
    You asked what we are doing about it. In each division, we 
have increased our prosecution effort. If you look, and I would 
be glad to provide the statistics, but if you look in each 
division that we have in the DEA, we have targeted more MDMA 
traffickers, they have become priority targets for us, and we 
have enhanced our prosecution and efforts.
    In addition, we have engaged on the education side. I have 
personally spoken at club drug conferences where we brought in 
law enforcement, educators, prevention and treatment 
individuals focused on the problem of ecstasy. I will be going 
to Fort Collins, Colorado in a couple of weeks for a similar 
conference. And so we are doing enforcement side but also the 
education side. But whenever you are looking at a small pill 
that can be brought in to a club very easily, it is a law 
enforcement problem. We can work hard at it, and I mentioned I 
went to this club scene for an educational and law enforcement 
purpose.
    Mr. Cummings. Were you dressed like you are today?
    Mr. Hutchinson. No, sir. [Laughter.]
    I do not know if it is possible for me at my age to work 
under cover, but I was trying.
    Clearly, there was some effort on the outside for security, 
even to the point that someone brought in a glass bottle that 
had eye solution in it and they made them squeeze it in their 
eye to make sure that it was eye solution and not some other 
product, and they pat everybody down. But you go inside there 
and you can identify the transactions. Clearly, drugs are 
prevalent in this environment. Obviously, with pills that can 
be easily disguised, hidden very easily, whether it is in a 
medicine bottle that has other pills or be hidden in a whole 
host of different ways, it is a difficult law enforcement 
problem.
    We are making extraordinary cases on it and I think that 
makes a dent. But, clearly, the education aspect is critical.
    Mr. Cummings. Thank you.
    Mr. Souder. Ms. Davis.
    Ms. Davis of Virginia. Thank you, Mr. Chairman. I apologize 
I was not here to hear the testimony, I wanted to hear yours, 
Asa, but I had another hearing. This is all a learning 
experience for me. I just went to the Caribbean with the 
chairman and learned a lot in the countries down there. And I 
understand that just yesterday I think you busted a lab in 
Hampton, so I know this hits home in my State.
    The only thing that I can tell you is that as the mother of 
two sons, and I do not really have a question, but as the 
mother of two sons, I know my older one, the things I found out 
after the fact, after he turned his life around, really threw 
me. I think the public just is not aware of the dangers of 
these little pills.
    I appreciate your being here and I appreciate the public 
hearing, Mr. Chairman, so that we can learn. Anything that I 
can do to help, I am ready and available. Thank you.
    Mr. Souder. Thank you. It was amazing, when we were in the 
Caribbean in Jamaica, the Jamaican trafficking organizations 
that come up to the United States and the Dominican trafficking 
organizations, like you stated in your testimony, they link 
back to Europe. Literally, one of the things that we have not 
really looked for before is how many of the islands down there 
are still associated directly with European countries. St. 
Martens with the Dutch. So if they get Dutch citizenship, they 
move in and they come in as though they are European rather 
than other types of visa rules, which would include the 
Spanish, the Dutch, the Portuguese, the French, and the 
British. It is a different dynamic because we have European 
rules working to our South which you can kind of see in the 
trafficking patterns now coming up when you run into things 
coming out of Europe as opposed to South America.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Thank you, Mr. Administrator, for the work that you are 
doing and also for visiting with us in Chicago. We appreciated 
that and enjoyed it very much.
    It seems to me that there are two things that are central 
if we are to block further proliferation. One, obviously, is to 
try and prevent the drugs from entering the country. The other 
is to try and convince people or make them aware of the danger, 
which requires a tremendous amount of what I call ``organized'' 
education. How much of that are you aware of, of what people 
are doing in different places to try and seriously acquaint 
young people especially with the dangers of the drug? I am 
remembering 25-30 years ago and there were other drugs and 
people who just could not quite believe that there was as much 
danger. Of course, some of these same people today are still 
experiencing difficulties from LSD and from all of the 
hallucinogenic activity in which they were involved. So how 
much education are we doing that you are aware of?
    Mr. Hutchinson. Well, it is a vast ocean out there in terms 
of the American public and teenagers and it takes a lot of 
people involved to accomplish the education, and it takes some 
time, and it takes the cooperation of the media. I noted that 
in Operation Green Clover after the death of Brittany Chambers, 
the headline the next day in the newspaper was ``Tainted 
Ecstasy Pill Kills Youth.'' Now there is something wrong with 
that headline. The implication to every teenager who reads that 
is that she got a ``bad'' ecstasy pill and if it were pure 
ecstasy everything would have been OK. And so a lot of messages 
out there are important.
    I know your next panel is very important. I am pleased that 
you have called people who have suffered under this in various 
ways to help tell the story. They are doing great work in the 
education arena. Parents are the greatest key in this because 
parents want to do the right thing. But you can go to many Web 
sites and you get false information that is out there, and then 
the teens' word of mouth gives you false information. I was 
talking to my teenage son about a death because of ecstasy in 
Arkansas and he said the word among kids on the street was that 
the place was not properly ventilated, they overheated, and 
they just did not have the right environment.
    It is misinformation out there. And so we have to have the 
schools involved, we have to have the parents critically 
involved in this. And we are working on it but it is a vast 
ocean that we have to fill.
    Mr. Davis of Illinois. It would just seem to me that if we 
could convince school districts, colleges and universities, 
enlist the aid of popular radio personalities, disc jockeys, 
people who kind of promote parties and places of recreation, 
that peer influence is probably as great as any kind, and if 
there could be a peer influence movement coupled with what 
parents and others could do, perhaps we could get a handle on 
it.
    But I certainly appreciate the kind of research that is 
taking place, the kind of information that we are gathering, 
and the work that you and your associates are doing to try and 
help us get a better handle on it. So I thank you very much.
    Mr. Souder. I will probably followup with some additional 
written questions for the record, but I wanted to ask a couple 
of things of Dr. Hanson and then if you want to provide more 
detail. In the National Institute for Drug Abuse, Institute for 
Health, do you have any idea of the current range of dollars we 
are doing to study impacts of this drug and then other drugs on 
the human body?
    Dr. Hanson. Our total budget approaches $900 million a year 
to study various aspects of substance abuse. Within that, we 
have the psycho-stimulants such as methamphetamine, cocaine, 
and we also have a significant budget that is being spent on 
the study of ecstasy. We actually started to study ecstasy 
about 1985 when it was originally scheduled. So this is the 
second wave of ecstasy problems we have had in this country. 
And as a researcher, that is when I began to research it, I 
received a grant from NIDA to study ecstasy. And so there has 
been a number of researchers who have continued for over a 
period of 15 years. And we actually know a great deal about how 
this drug works, what it does, why it causes damage, and its 
potential long term consequences.
    Mr. Souder. Has that budget been fairly even in the sense 
of adjusted dollars, or as we get new drugs that come in, do 
you switch some of the dollars? We have not had a hearing for a 
number of years here on the actual drug treatment research 
side.
    Dr. Hanson. We certainly evaluate what the need is. For 
example, we just recently put out a call for applications on 
GHB, which is a relatively new phenomenon that has hit the club 
drug scene. We know very little about this substance so we are 
trying to enlist the help of scientists to give us a better 
handle on how GHB works. So there is a case where we have 
targeted money. We are going out to get additional information.
    Ecstasy, we have quite a stable of investigators who have 
had ongoing research projects looking at ecstasy. And so while 
we certainly encourage it, we put it as a high priority, we 
have not done a special announcement calling for a special 
group of applications for it. But we are clearly very 
interested in it.
    Mr. Souder. You raised an incredible complex question both 
for the prevention and the treatment community about this. I 
mean, we think of multi-abusers as maybe being alcohol and 
marijuana or cocaine and marijuana and maybe some alcohol. You 
threw everything but the kitchen sink and a lot of things under 
the kitchen sink into the mix. How do you research that, the 
interactive effects? I mean, we have seen on tobacco these 
signs that say rat poisoning. You probably had in some of your 
lists six or eight different types of rat poison and things in 
the mix of what these kids are mixing together. How do we look 
at that and what impact that has on the human body?
    Dr. Hanson. It is very difficult to sort out. That is part 
of the criticism of those who claim that our knowledge of 
ecstasy really is not legitimate. Because in humans that is the 
general pattern. It is not very often you find a person who has 
overdosed on ecstasy alone, it is almost always in combination 
with other substances. So if this person has serious medical 
consequences or actually dies, is it the ecstasy that did it, 
is it the methamphetamine that did it, is it the alcohol that 
did it, is it the GHB that did it, or is it a combination and 
interaction of all of those things. Those are difficult studies 
to do. You cannot do them in humans for obvious reasons. And it 
becomes more problematic when we do the animal models because 
the critics say, well, animals do not predict what happens in 
humans, although that is not true. But that is a criticism.
    So, you are right, it is very complex. And it is even 
harder for people who are doing the treatment in emergency 
rooms. What do you treat when someone comes in? Do you try to 
treat the MDMA, the alcohol, the GHB? About all they can end up 
doing is treating the symptoms and hoping that they can somehow 
get the thing under control and the person can survive. It is a 
difficult issue.
    Mr. Souder. We can all talk about treatment but the 
treatment is only going to be as good as your research saying 
what impact it has on the human body and how to treat it.
    Dr. Hanson. Right.
    Mr. Souder. One last question. Do you do research into 
possible recovery on things? Do you believe that after usage of 
ecstasy you can--in other words, that is the natural phenomena, 
but are there treatment methods that give hope for recovery and 
do you study those types of things too?
    Dr. Hanson. There is recovery that occurs. Is this person 
ever going to go back to where they were before they used the 
drug? My guess is no, I do not think they ever will.
    Mr. Souder. Loosely defined, I would not define on that 
relatively simplistic example much recovery if you are saying 
there are 10,000 little dots here and 50 of them are back.
    Dr. Hanson. Right. This is a fairly high dose. It is not 
out of the clinical range. We find people that are doing this 
but it is fairly high. Most people that are moderate users 
probably are going to be half this or a fourth of this. They 
will still have the deterioration of that system in the brain 
but they are likely to have more recovery as well. It is just a 
basic rule, the less you traumatize the system the greater the 
chance it will be able to come back on line eventually and 
restore some of that function. But we are looking into how can 
you help these people, not only MDMA but methamphetamine is a 
serious neurotoxin that causes even worse damage than this. How 
do you get these people so that they can return to normal 
lives, be functional again, get their cognitive faculties back 
in line, and go out and have relatively normal experiences in 
the workplace and in families.
    Mr. Cummings. What did you think of the ads, Doctor?
    Dr. Hanson. I think that they can form an important part 
but you need to give them the whole story. This is the story of 
someone who dies immediately in an environment, in a rave. We 
do not know why, probably cardiovascular. Those people that die 
after a single administration, usually it is a cardiovascular 
incident that is occurring, it may be a hypothermic incident. 
So it gives you a sense of the potential risk on individuals. 
But it is important that everybody understand the level of risk 
for others, not the 1 out of 100 or 1 out of 1,000. But all 
those folks that are using it, they have used a tablet or they 
have used two tablets and they have done it every other weekend 
and they seem to be able to go back to their normal life, a 
little bit of a hangover but get back to normal, they need to 
understand the risk that is there for them as well.
    Mr. Cummings. I guess when you see something like this the 
normal statement is, well, that is not going to happen to me.
    Dr. Hanson. Right. That is not me.
    Mr. Cummings. Therefore the ad would not have the kind of 
impact you would hope.
    The reason I asked you about the ad is because we have been 
engaged in trying to make sure that the ad campaign is as 
effective as it can possibly be. And, certainly, prevention is 
the key to all of this. I look at the money that this 
Government spends, I look at the lives that are lost, I look at 
the parents that are just devastated by seeing this wonderful 
child that was born 16 years ago now a whole other person. I am 
just trying to figure out ways that you think, and perhaps this 
is a better question for the next panel, that you think we can 
get this word out most effectively and efficiently so that 
people do not have to go through all of this. This is a lot to 
go through.
    And then you talked a little bit earlier about productivity 
and the job. I assume a person could be taking this ecstasy 
every other night or whatever and still go into a classroom and 
do fine. Is that right?
    Dr. Hanson. We do not know that precisely, but I would not 
say that they are doing fine. I would say that they have 
probably been compromised. It might be a subtle effect. It may 
be the difference between taking an exam and getting 95 percent 
versus taking it and getting 80 percent. If you look at that 
individual, you will say, oh, 80 percent, they are still doing 
OK. But they are not doing to their potential. You compromise 
them in their ability to process complex information, which is 
a lot of what life is all about. The better your executive 
function is the better, more successful you are going to be in 
life. If we compromise that, then your potential has been 
compromised. And my guess is that is what is happening with the 
casual user of these kinds of drugs, that you have compromised 
their potential. They are not going to become institutionalized 
likely except in extreme cases, but you have just knocked them 
down a notch from what it is they really could have done and 
from what they could have accomplished.
    Mr. Cummings. Administrator Hutchinson, just one last 
thing. This whole thing of the ecstasy moving into, say, the 
inner-city, how do you all come to that conclusion, and to what 
extent do you see the movement? In other words, I assume this 
is based upon arrests, what you find during the arrests, 
research.
    Mr. Hutchinson. It would be based upon arrests but also on 
drug availability, the seizures, where they are headed, where 
the organizations are marketing. So a whole host of those 
things. And when I say it is the No. 1 problem of urban youth, 
I am speaking of where it started in the club drug scene, it 
expanded to the streets. It is something that rural youth is 
not immune to, they travel to the cities, that is where parties 
take place, that is where they can get drugs as well. But the 
No. 1 problem in rural America is methamphetamine. So what we 
have in the United States is you have to look at the different 
geographic centers, what the No. 1 problem is, and there are 
different drug problems in different areas.
    Mr. Souder. Would it not also be this tremendous potential 
to cut price, because if there is this much inflation in the 
price, it could be a little like cocaine and crack where you 
came up with variations to drop the price which then gets the 
addicts among the poor as the education efforts and the parents 
and the treatment programs hit the suburbs. It is not like we 
have not watched this pattern.
    Mr. Hutchinson. Certainly possible.
    Mr. Souder. Do any of the members have further questions?
    I thank both of you for coming. We appreciate your 
testimony and will followup with some additional questions.
    Mr. Souder. Would the second panel now come forward. If you 
will just remain standing, I will give you the oath before you 
sit down.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I would like to thank you for coming today, for being 
willing to speak out on this important issue, not only here but 
in your home areas and around the country. We hope that by 
sharing your experiences here other Americans will learn, and 
this will become part of a hearing book to use as we work with 
various legislation as well. We would like and appreciate if 
your statements could be within 5 minutes and then we can ask 
further questions and draw it out and give your more time 
later.
    We will begin with Ms. Kate Patton.

  STATEMENTS OF KATE PATTON, KELLEY MCENERY BAKER FOUNDATION; 
  LYNN SMITH; AND DR. TERRY HORTON, MEDICAL DIRECTOR, PHOENIX 
                             HOUSE

    Ms. Patton. Good afternoon, Chairman Souder, and other 
members of the committee. I appreciate your inviting me here 
today to testify on what has become an ever growing problem in 
this country--ecstasy abuse.
    It has been 2 years and 10 months since I lost my daughter, 
since I heard the four words that are every parent's worst 
nightmare, ``your child is dead.'' I lost my daughter to an 
accidental overdose of ecstasy. But more correctly, I lost 
Kelley three times to ecstasy; first when she started using it, 
second when she began to sell it, and third when she died from 
it. I am here today to put a face on the devastation that 
ecstasy has on a family.
    I saw Kelley take her first breath the day she was born. I 
gave her her first hug. I was not there for her last breath and 
I never got to say good-bye to her. I was robbed of hugging her 
good-bye. My life is forever changed, as is that of my younger 
daughter Tori, who lost her only sister to a drug that so many 
people feel is harmless.
    Before Kelley's death I had never heard of club drugs, let 
alone ecstasy. I now know more about the very drug that took my 
daughter's life than I ever thought possible. Ecstasy took my 
daughter but it will not take me. A year ago I started a 
foundation in her memory, the Kelley McEnery Baker Foundation 
for the Prevention, Education, and Awareness of Ecstasy Use. I 
speak to high schools and youth groups to share Kelley's story 
with the hope that they will learn from her deadly mistakes. I 
also speak to parents groups and town hall meetings to 
encourage parents to become what I now call ``information 
junkies'' when it comes to knowing about all the drugs that may 
cross the paths of their children. I mention to them that they 
go to the grocery store very prepared with their grocery list 
in hand but are they as prepared to sit down and talk to their 
children about drugs, something that is as important as their 
children and something that may kill them?
    My goal is to reinform the misinformed and to enlighten 
those who know nothing. During the past year, I have talked to 
well over 3,000 kids. I use a power point program but I mostly 
talk from my heart as a mother who has lost a child to ecstasy 
and club drugs. I encourage questions and I have plenty of 
questions of my own. One question that I never fail to ask the 
kids is how many parents have sat down and talked to them about 
drugs. Sadly, very few hands are raised. At one particular 
school I visited I went on to ask if they knew anyone who had 
overdosed from drugs. Surprisingly, far more hands went up. And 
when I mention ``overdose'' it is not necessarily someone who 
died but someone who has gone to the hospital for overdose. But 
they shared their stories with me and there were plenty of 
deaths that they told me about.
    I was dumbfounded by what they had told me. It is my 
experience that there is a huge population of parents who do 
not talk to their kids about drugs. Perhaps they are unaware of 
the many harmful drugs that their children are exposed to on a 
daily basis, or maybe they feel, as many parents do, ``my child 
would never try drugs.'' I know of what I speak, I was one of 
those parents and I had to pay the ultimate price for my 
ignorance.
    The time is now to find a way to impress upon parents the 
urgent importance of becoming knowledgeable about all drugs and 
sharing that information with their children. Drug awareness 
and information must start at home. I am proud of the State of 
Illinois, I wish Mr. Davis was still here, and its lawmakers 
for taking a hard stance against ecstasy and club drugs by 
passing House Bill 126. It was a labor of love for me to have 
been involved in lobbying for it. It is now known as Kelley's 
Law.
    Kelley's Law targets criminals who seek to profit from 
selling illegal club drugs. It took effect January 1, 2002. 
People convicted of selling as few as 15 pills and up to 200 
doses of ecstasy with intent to distribute will face Class X 
felony penalties of 6 to 30 years with no chance of parole. It 
is the toughest law of its kind in the country. Without 
Kelley's Law a person would have had to sell more than 200 
grams, approximately 900 pills, in order to be charged with a 
Class X felony in Illinois. Before that it was just a 
misdemeanor. Chicago DEA supervisor George Karountzos recently 
told me that he has seen a marked decrease in people wanting to 
get involved with selling drugs in Illinois because of Kelley's 
Law.
    There is much to be done on so many fronts in order to put 
a significant dent into the war we have waged against drugs. I 
believe that our priority needs to be education and awareness, 
which should start in the home and continue with support from 
our school system and faith-based organizations such as 
churches and synagogues. The phrase ``it takes a village to 
raise a child'' is a good metaphor in that to be effective drug 
education must be approached from many different angles and 
directions. We must learn to accept that drug abuse and 
addiction is an illness, as is recognized by the AMA. There are 
many drug offenders that land in jail repeatedly with no help 
for their illness, they will just land in jail, get out, and 
land back in jail again. They need to be treated with the help 
of programs and drug courts. Illinois and Kelley's Law sets a 
good example that stiffer penalties do work. I feel every State 
needs to review their drug laws and update them accordingly. 
This is a bipartisan issue and is of paramount importance in 
order to help protect every child in this country.
    I want to close today as I close all my presentations to 
the many kids I speak to. I ask for a volunteer and ask them to 
read a poem that I selected to be read at Kelley's funeral by 
one of her high school classmates. At one particular school, 
actually the school that my young daughter goes to high school 
in Palatine, Illinois, this one young man was in the last row, 
he was waving his hand, and I felt he really wanted to read the 
poem. So I called him down and he pulled me aside and said 
thank you, Mrs. Patton, for selecting me. My mother took 
ecstasy when she was pregnant with me and I have had problems 
ever since. That was very telling to me. He said I just feel 
like I am giving back a little something by reading this poem 
for you.
    The poem is titled ``Remember Me.''
    To the living I am gone.
    To the sorrowful, I will never return.
    To the angry, I was cheated.
    But to the happy, I am at peace.
    And to the faithful I have never left.
    I cannot be seen, but I can be heard.
    So as you stand upon a shore, gazing at a beautiful sea--
remember me.
    As you look in awe at a mighty forest and its grand 
majesty--remember me.
    As you look upon a flower and admire its simplicity--
remember me.
    Remember me in your heart, your thoughts and your memories 
of the times we loved, the times we cried, the times we fought, 
and the times we laughed.
    For if you always think of me,
    I will have never gone.
    After the poem is read, I ask the kids to look around and 
think of a friend or a buddy that they are sitting next to and 
I ask them can you imagine reading that poem at their funeral, 
having their mother call you up and reading that poem at your 
friend's funeral. Or worse yet, can you imagine having one of 
your friends read that poem at your funeral. The silence is 
deafening. I am hoping that this exercise drives home the point 
that drugs cannot only harm them, send them to jail, or, worse 
yet, kill them. Thus far I feel my point has been very well 
taken.
    I commend you, Chairman Souder and the committee members, 
for holding this hearing and doing what you can for drug abuse 
in this country, not only ecstasy but all drug abuse. But as we 
heard from Director Hutchinson, ecstasy is unfortunately 
running rampant in our country and I am doing what I can to 
help. I do not want another mother feeling the way I have had 
to feel the last 2\1/2\ years, and that is why I do what I do.
    [The prepared statement of Ms. Patton follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.023
    
    [GRAPHIC] [TIFF OMITTED] T8329.024
    
    [GRAPHIC] [TIFF OMITTED] T8329.025
    
    Mr. Souder. Thank you for being willing to come forth today 
and also for all your work in the schools. Hopefully it will 
have a good, positive impact on lots of other kids and their 
families down the road.
    Ms. Patton. Thank you.
    Mr. Souder. Ms. Smith.
    Ms. Smith. Thank you. I feel very fortunate to be sitting 
here today not only as a citizen of this great country but as a 
survivor of an insidious drug called ecstasy. I get all choked 
up sitting next to Kate here who I have grown to love. It could 
so have easily been my mom sitting here today with a picture of 
me on her lapel. I feel very, very fortunate.
    I guess I will start by telling you a little bit about 
myself and where I grew up. I grew up in a really tiny, tiny 
town called Danville, which is in Pennsylvania. Lots of cows, 
lots of pastures, lots of farms. I was a straight A student, 
well liked, popular, all of those things, a boyfriend. All of 
those things you want when you are young I had. I had always 
dreamed of moving to New York City to pursue a career when I 
was old enough and when I graduated.
    My dream came true when my mom brought me to New York City 
when I was 19 years old. So, as you can imagine, it was a 
completely new way of life. No pastures, no cows. It was city 
streets, city lights. It was a whole new way for me to get used 
to. I was exposed to new people from acting school I just 
thought were so exotic, so intelligent, so amazing. At every 
party we went to there just seemed to be an endless supply of 
drugs. I was turning 20 and I was unable to go to bars with my 
friends--I could not get into most bars, I could not even have 
a Heineken if I wanted--but we were sitting in apartments of 
different friends and there would be cocaine, there would be 
ecstasy, heroin. And I was drug-free until the time I moved to 
New York City. It was just all so shocking to me but at the 
same time very alluring. I thought, wow, I am on my own, I can 
do whatever I want.
    One particular evening I fell in love with ecstasy. My love 
affair began that evening when my friend pulled out a card and 
said, ``We are going to order some pills, do you want 
anything?'' I was like, well, should I. She is like, ``Don't 
even answer, we will just order you some, and if you want it 
you can have it.'' So like calling Dominos Pizza, 30 minutes or 
less there was a messenger at our door with a bag of pills with 
little smiley faces, very interesting emblems, Nike symbols, 
Mitsubishis. It was just like, OK, pick out your favorite 
color, pick out what represents your personality. It was a way 
to pick out a pair of jeans or sneakers, that is the way people 
were diving into this bag, like, oh, I am going to take these, 
this is a smooth high.
    So I just closed my eyes, put my hand in the bag, and 
swallowed one not really thinking about it. I had seen them all 
do ecstasy before and it just seemed so--I mean, everything I 
learned growing up was it was going to be a dark, scary alley, 
there was going to be a dark, scary man selling me drugs. It 
was going to be scary. But it wasn't. It was in a beautiful 
Greenwich Village apartment, nice, smooth lighting. My drug 
dealers were my friends. And the awful feeling that I thought 
came from drugs, it looked very amazing to me--everyone giving 
massages, hugging, and talking. And I did it.
    After that pill, nothing was ever the same again. I just 
thought, oh, my gosh, this is what true happiness is. For those 
of you who have never used ecstasy, although it is a chemical 
reproduction, it makes it feel no less real. You feel amazing; 
no anxiety, no worries whatsoever. I just felt so complete and 
whole while I was doing it. I did not have a lot of time on my 
hands, I was working a full-time job and putting myself through 
school. When I graduated and my friends changed, I had more 
time on my hands, and of course graduating from acting school 
is like, OK, here is your token and a cup of coffee; there is 
not much guarantee of anything. So it was a really cutthroat 
industry that I was going into and failing at, my friends 
changed, I was bartending late hours, and I began to use 
ecstasy more and more.
    I was going out to clubs. And it was basically during a 5-
month period that I was getting involved with people who sold 
ecstasy. It was just so readily available to me. I was not 
paying for it half the time. So I was really just socially 
addicted to this drug, going out, being in clubs dancing, and 
just feeling amazing. My weekends started out Thursday to 
Saturday and then went Thursday to Monday and I was just 
popping these pills like they were candy.
    The reverse effects soon set in. I was having panic 
attacks, I was feeling like I wanted to rip my skin off, I 
wanted to die. I could not sleep at night, I could not eat, I 
was not talking to my family, I was not going on auditions, I 
was not showing up for the 2-days of work that I had per week. 
My life was just in a downward spiral within a matter of 
months. It was not like years I was using this drug. At the end 
of this spiral, I was sitting at home in my apartment in 
Brooklyn with my boyfriend and my roommates. We had just 
finished a movie, it was late, I stood up from the couch and 
within seconds I just felt changed. I felt like something 
inside me had snapped. I could not catch my breath, I felt like 
I was having a heart attack, I was hallucinating, I did not 
know who I was, I did not know where I was, I was so paranoid, 
I did not know what was going on. I was trying to make myself 
vomit, I was pacing around, I was trying to run outside into 
traffic. Luckily, my boyfriend stood by my side the whole time 
whereas my friends went off to bed, they told me to have a 
cigarette or a shot and that was actually the last time I saw 
those people.
    So the only sane and reality-based thought I had was to 
call my mom, call my mom, that was all that was in my head. So 
my boyfriend called my mom. I got on the phone and said you 
have got to come get me, I am dying, I am going crazy, I am in 
hell, you have to rescue me. Of course, probably every parents' 
second worst nightmare, the first would be your daughter is 
dead. She very calmly said I will be right there. She got in 
her car and drove in the middle of the night to New York City. 
By the time she got there I was so completely out of reality 
that when she pulled up to the curb I did not know who she was 
and I refused to get in the car with her because I just did not 
believe who it was, I did not believe it was my mom. So my 
boyfriend had to force me in the car. During the drive home I 
kicked and I screamed, I was praying to God to wake me up from 
this nightmare that was not a nightmare, it was real life.
    We got to the emergency room where--and my mom had no idea 
of what I was doing in New York City, she thought I was still 
the model child that I left as--I told the doctor that I was 
using ecstasy and that I was using it all the time, I did not 
know where my life was going. And then I really do not remember 
much. All I know is that I had to sign papers to go into a 
psychiatric ward in my hospital and that if I did not sign it 
the State would sign it. So basically my mom convinced me to 
sign it. So I signed it and it was done. I was in a psychiatric 
ward for 14 days. The first few days I refused to take 
medications because I was so paranoid and I was afraid I was 
swallowing more ecstasy, so I refused to take medications which 
were to help me sleep because I was not sleeping.
    So, basically, I came out of this and started to take my 
medication and at the end of 2 weeks I left. I got out of there 
thinking, OK, this is it. OK, life was better but I had no job, 
I had no apartment anymore, I had no money, I had no friends, I 
had a whole new way of life to start, making some decisions, a 
lot of soul-searching, a lot of medication, a lot of 
counseling, a lot of AA meetings. And the only thought that I 
had the whole time I was in the psychiatric ward when I was 
back to reality was I need to talk, I need to tell this story, 
and I kept saying to my mom I need to talk. And my mom was 
like, well, let's get you better. And I was like, no, I need to 
talk, I have to be heard, this needs to be known because I 
never thought this drug could do this to me.
    Everything I read about it, everything I saw, everything I 
heard was so--you know, the New York Times Magazine, I do not 
know if you all read that a few years back, with a tall, 
beautiful model with the word ``ecstasy'' wrapped around her, 
and I read that article thinking, this was after I got out of 
the hospital, thinking why am I not still doing this. It was 
saying how great it was and what the amazing affects were. And 
I thought I am alone and I am the going crazy and I am the only 
crazy person.
    So I contacted MTV, I was writing letters to anyone who 
would listen to me, and MTV decided to do a show on ecstasy 
called ``True Life: I'm on Ecstasy,'' which I was a part of. 
And from that it just kind of snowballed. My place began and 
people were listening and interested. I was contacted by the 
Partnership for a Drug-Free America, who I now volunteer for 
and I am on an advisory board there, and I began just speaking 
locally and now I speak throughout the country. I feel like I 
really do have my finger on the pulse of kids, of young people. 
I am a young person. Luckily, I came out of this alive. I know 
what they are up against. And when I talk to them on a daily 
basis, I receive thousands of e-mails, some of which I 
included, from kids from all over the country talking about 
thank you for coming forward, thank you for going public, you 
were the first person I could see and relate to and think, wow, 
this happened to her, it could happen to me, or it did happen 
to me and now what do I do.
    So it has definitely been an amazing experience for me to 
talk to kids and to be a part of drug education, which I think 
is so crucial and important, and a whole new wave of drug 
education and the way we approach kids and what we do in 
schools now. I wish there were 15 of me that I could just send 
out. I want to do all I can. It is just not enough, there just 
needs to be more done. I thank you so much for inviting me here 
and listening to what I have to say. I guess I just want to say 
my voice speaks out for all of those who no longer have one and 
all of those who do not know how to ask for help. I want you to 
look at me as a daughter talking to their father or their 
mother or their sister or brother, I just want you to look at 
me as your own child. Thank you.
    [The prepared statement of Ms. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.026
    
    [GRAPHIC] [TIFF OMITTED] T8329.027
    
    [GRAPHIC] [TIFF OMITTED] T8329.028
    
    Mr. Souder. Thank you very much for your moving testimony 
and your enthusiasm. It is hard to imagine you on a stimulant. 
[Laughter.]
    It was incredibly moving and it is really good for us to 
see that, both as parents and as legislators.
    Dr. Horton has the unenviable position now of--when you go 
to testify for a hearing you always wonder what the testimony 
before you is going to be like and the pressure. But we 
appreciate your coming today and informing us a little on what 
might be done in the treatment area.
    Dr. Horton. Mr. Chairman and members of this subcommittee, 
I want to thank you for the opportunity to speak to you about 
the use of ecstasy and other club drugs among addicted young 
adults. My name is Dr. Terry Horton. I am a physician and the 
medical director of Phoenix House, which is the Nation's 
largest residential drug treatment program, now treating about 
5,500 adolescents and adults throughout the country.
    I have watched with mounting concern the rising incidence 
of club drug use and the impact of that use among teens and 
young adults entering treatment. We have seen over the last 5 
years a dramatic increase in the number who report using club 
drugs, most notably MDMA, also known as ecstasy, and among them 
a significant number experience problems specifically 
associated with the use of these drugs. Experiences of these 
young people are a useful guide to the parameters of club drug 
and ecstasy use. They are consistent with the previously 
reported patterns and make clear that the use of ecstasy has 
been essentially a middle-class phenomena and is most readily 
found in the suburbs that we serve. It is no longer exclusively 
or primarily restricted to the club scene or all night 
underground dance parties called raves. Initial exposure for 
our teens and young adults is, in fact, more likely to occur at 
a friend's house, a school function, and the initial age of 
exposure is 14 years.
    Until now the use of ecstasy has been rare in the inner-
city. But there is a threat posed by recent glamorization of 
the drug by hip-hop musicians, and, indeed, a growing number of 
minority youngsters entering Phoenix House in New York City now 
report ecstasy use, a trend we have never seen before.
    Now let's understand something about the use of ecstasy. 
Few people are addicted solely to ecstasy. They use ecstasy and 
other drugs as well. Among teens in our Phoenix academies, 
which are residential high schools for teens in treatment, the 
norm is poly substance abuse, abuse of more than one substance. 
Most start early with alcohol, tobacco, marijuana. We actually 
view regular use of club drugs like ketamine or ecstasy as a 
marker for serious, well-evolved drug history. At our Phoenix 
academies in Austin, Texas, Santa Anna, California, and 
Westchester, New York, more than half of the students have used 
ecstasy, a significant increase over the past year. We are also 
now beginning to see a new trend where ecstasy is becoming a 
drug of choice for adolescent users. At our academy in 
Ronconkma, Long Island, two-thirds have used ecstasy and 17 
percent report it is their drug of choice.
    Ecstasy use has clearly been shown to damage sensitive 
areas of the brain involved with memory and learning, it has 
been associated with elevated impulsivity, sleep, mood, anxiety 
disorders as well as possibly enhancing vulnerability to other 
psychiatric problems. Both animal and human models suggest that 
the damage may be long lasting, perhaps persistent. When we 
look at the behavioral impact of chronic ecstasy use, the 
outcomes we at Phoenix House see are much the same as those we 
find in young people whose drug abuse is restricted to other 
drugs such as cocaine and heroin. At Phoenix House, use of 
ecstasy and other club drugs is associated with disruption of 
education and a loss of career opportunities, HIV, risk 
behaviors, criminality, co-occurring psychiatric and 
psychological problems.
    Addiction to ecstasy, as with other drugs, robs individuals 
of opportunity, hope, self-esteem, and health. Yet American 
teenagers seem somehow to have gotten the message or the 
impression that ecstasy is safe. So we must make every effort 
to disabuse them of this notion and stem the rising incidence 
of club drug use. It is no less important to save people who 
are already on the path of self-destruction from the dire 
consequences of prolonged ecstasy use.
    Treatment works when it is available. Because treatment is 
not just how you stop people from using drugs, it is how you 
keep them from using drugs. It is about the person, the whole 
person, and what treatment does is help drug users to 
understand the underlying reasons for their drug use and 
confront them, change their negative attitudes, accept 
responsibility for themselves and their behaviors, and start a 
new and positive way of life. At Phoenix House we have been 
treating young drug addicts for 35 years. We recognize that no 
matter what drug is used treatment, whether it is outpatient or 
residential, takes time to initiate or to change ingrained 
patterns of behavior. Treatment must be demanding. And while it 
takes motivation to succeed, at the start it generally takes 
some pressure from parents, schools, employers, and the courts. 
And, of course, treatment should involve the whole family--
parents, siblings, husbands, and wives.
    At Phoenix House, treatment is based on a therapeutic 
community model. This model uses peer group to change behaviors 
and attitudes that lead people to drug abuse. Young people in 
our programs take an active part in their own recovery and are 
partners in the recovery of their peers. We foster self-
awareness, teach social values, and provide a road to maturity 
for young men and women whose maturation was thwarted by drugs. 
We help them acquire skills to sustain recovery, education and 
career training so they can reunite with their families as 
drug-free and productive individuals.
    Relearning fundamental skills and reshaping lives takes 
time. Typically, residential treatment can last 12 to 18 months 
and may be followed by after-care. Research shows us that these 
efforts are not wasted. However our clients come into 
treatment, by their own decision, family coercion, or criminal 
justice referral, long-term success is correlated directly to 
the length of time in treatment. And long-term success means 
sustained sobriety, employment, and freedom from criminal 
activity.
    Treatment works when it is available. But as the National 
Household Survey, conducted by the Substance Abuse and Mental 
Health Services Administration, reported earlier this month, 
nearly 80 percent of those who need treatment do not receive 
it. What the survey does not show is what we have been seeing 
at Phoenix House, which is the rapidly rising level of ecstasy 
use among kids in all of our adolescent treatment programs 
throughout the country. And what is truly frightening to me as 
a physician is the number of addicted kids today throughout the 
country who are probably also abusing ecstasy, placing 
themselves in harm's way, and who have no access to treatment. 
Thank you.
    [The prepared statement of Dr. Horton follows:]

    [GRAPHIC] [TIFF OMITTED] T8329.029
    
    [GRAPHIC] [TIFF OMITTED] T8329.030
    
    [GRAPHIC] [TIFF OMITTED] T8329.031
    
    [GRAPHIC] [TIFF OMITTED] T8329.032
    
    [GRAPHIC] [TIFF OMITTED] T8329.033
    
    Mr. Souder. Dr. Horton, you said a high percentage had used 
ecstasy at least at a couple of your locations, 17 percent at 
one had it their primary choice. When somebody comes in with 
ecstasy, how are they different from people who come in others, 
both in how they are entering psychologically, how you treat 
them, is the physical addiction the same?
    Dr. Horton. All drugs of addiction act on the central area 
of the brain, which NIDA has been really good about explaining. 
The consequences of that are behavioral consequences, and they 
are really quite common regardless of the drug of abuse, and 
that is what we have found for 35 years, be it marijuana, 
alcohol, cocaine, heroin, ecstasy, whatever.
    We really have two different populations. We have the 
adolescents and the adults. The adults who use ecstasy or have 
used ecstasy have been primarily our younger adults and ecstasy 
was clearly one of the mix. Frequently these individuals call 
themselves ``garbage heads'' as a description for a poly 
substance abuser. Among our adolescents coming into treatment, 
those are primarily drug abusers with their chief drug being 
marijuana and alcohol, daily, chronic use of marijuana and 
alcohol. And what we have been describing in the last year is 
really a rapid increase in that group who--particularly the 
ones from the urban settings, which is a major chunk of our 
clients, particularly in New York City--have not used ecstasy 
and are now starting to have that as part of the mix.
    They do not on the surface look any different or act any 
different than any of the other of our clients. But I would 
like to share with you an anecdote that came to me this week 
from one of the directors of our outpatient programs in 
Manhattan, a program that primarily serves adolescents that are 
from more affluent and private school populations, an after-
school program. Fifteen of the children there, and for 5 years 
there has been more of an ecstasy exposure in this group, 
fifteen kids are currently in the program, seven were regular 
chronic users prior to coming into the program, two of that 
group flat out stated that this was their drug of choice.
    And in the dynamic of that program, which is a group 
therapy--you ask how do these kids act any differently, and it 
is very interesting--the group responds differently to these 
two children. They are not quite cognitively as aware, they are 
a little slower. This is a program that tries to teach abstract 
concepts, there is a lot of thinking, soul-searching. The group 
responds by accommodating perhaps to the impairment that these 
two have incurred. One of those children is a student at 
Julliard--I am talking about someone who is extremely high 
functioning, who composes, who is a pianist--and he reports 
separately the feeling of not quite performing at where he was 
before and he reflects that in his composition.
    So I would say that research has not caught up to this 
place yet and this perhaps is the front edge of the problem. We 
are seeing cognitive impairment.
    Mr. Souder. Ms. Smith, what is kind of your reaction to the 
media anti-drug campaign and the drug-free schools and how we 
could make those more effective for kids?
    Ms. Smith. I ask, because most of the young people who I go 
speak to think I am a lot younger, which works for me, and they 
just trust me instantly. I show my MTV video when I speak and 
that hooks them right in. And I ask them after, especially with 
this new ecstasy campaign that the Partnership has launched, I 
say, ``Have any of you seen those commercials?'' and most all 
of them raise their hands. And I say, ``Honestly, tell me what 
you think? What would work for you guys? What would you want to 
see? What would change your mind if you had something in front 
of you that you were about to swallow but you saw it, what 
would impact you?'' And there are no teachers, no principals 
there. And I ask them straight out. And they say they laugh at 
those commercials. They say it is just so kind of Hollywood and 
it looks just splashy and not real. That is all I get from 
these kids. They say it is does not convey truth or reality to 
what is going on. Yes, the ultimate price you pay with this 
drug and with any drug is with your life. But it is the stuff 
that you live with, that you survive the panic attacks, the 
lapses of reality, all of those things.
    It is just such a slippery slope and it is hard to say what 
would work. But I am seeing more young people like myself 
coming forward and telling their stories and getting out there. 
You know, this brain imagine that was shown on the MTV video, I 
never thought my brain would be so famous, I get calls for it 
everyday, could we have a copy of your brain, this is what gets 
through to kids. They saw this, and obviously it looks pretty 
awful, it is not holes in my brain, that is not what it is, but 
they see that, this is like a tangible thing they look at and 
they say, wow. Looking at me, looking that I am a young person, 
looking at what I have done, knowing that I did do ecstasy for 
a very long time, most kids e-mail me saying I saw the MTV 
thing, wow, your brain, your brain, I was going to go do 
ecstasy tonight at a party and all I had was that image of your 
rotating brain on the MTV special, or I got your picture up on 
the Web site and your story just really impacts me.
    I never thought it would be--I just thought I was telling 
my story. I did not think I was really going to be recognized 
for it. I guess it is just truth. The truth conveys and that is 
the best kind of message out there. I think maybe just people 
who are willing to come forward and really just give 
testimonies to the camera saying this is what happened to me, 
or showing pictures. I do not know. There are so many ways to 
go about it. I would love to be a part of it and really help.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. I want to thank all of you for your 
testimony.
    I am just curious, Ms. Smith, if you had heard you, do you 
think you would have tried ecstasy?
    Ms. Smith. If I would have heard me today would I be a 
user?
    Mr. Cummings. In other words, before you even tried it, if 
you had heard you, somebody like you sit up and say what you 
said, do you think you would have still used it? Let me tell 
you where I am going. One of the things that you said that was 
very interesting is that you would be in these apartments I 
guess and whatever and it was something very attractive. I 
guess it is the same kind of thing that draws young people to 
smoke cigarettes, it looks----
    Ms. Smith. It is seductive.
    Mr. Cummings. Yes, right. And so I am just wondering, 
hearing your own story, would that have been enough?
    Ms. Smith. You know, for me I think it would have been. 
Like I was just really naive. I had no kind of drug education 
growing up from my family or from school. I think I had one 
teacher in health class say that marijuana is very bad. 
[Laughter.]
    And the ``Just Say No'' kind of thing and then, OK, on to 
the next subject. It was nothing, no kind of life skills. I 
could tell you the square root of pi and balance an equation, 
but if you asked what are the side effects of cocaine use or 
what are the real consequences of you using ecstasy, I would 
have no idea. And I did not do my own research. I was 20 years 
old and I was not going to the library thinking MDMA. I was 
thinking, wow, it is a smiley face, it looks like a Tic-Tac, it 
is not a needle, people's heads are not rolling off their 
bodies.
    I had never heard anything bad about the drug until this 
happened to me. And I saw myself, I was watching the MTV thing 
and saw my own story and thought, oh, my gosh, I wish I would 
have seen this. I wish there had been someone else who survived 
this who had came forward and done this. I cannot say 
definitely no way would I have done it. I think it really, 
really would have helped.
    I think most of the kids that I talk to are really 
intelligent and they want to know, they are thirsty and hungry 
for information. It is not like, oh, I am a rebel, I just want 
to use drugs. They really do not know any better. Like Kate was 
saying, most of the kids I ask too, do your parents talk to 
you, do you have health classes. Some of them do not even have 
mandatory health classes and the last thing they remember was 
maybe in the third grade having a DARE officer come in and talk 
to them.
    Ms. Patton. And they tune out.
    Ms. Smith. They tune out. Someone comes in, you know, I go 
in, I dye my hair different colors, I just want to be one of 
them and I feel so close to them knowing what they are going 
through and being a young person, not saying the DARE officers 
are not great in their own right but at the same time there has 
to be a whole new way and a whole new approach to the issue. 
And it is a whole new generation of kids, very intelligent 
kids, very savvy kids, knowing a lot more than I did at that 
age, and that was only 6 years ago that I was in high school. 
So I think there just needs to be a much more respectful and 
intelligent approach and truthful, very truthful.
    Mr. Cummings. The thing is that we serve not only as 
parents here but as legislators to affect young people before 
they get to the point of using. And the more I listen to your 
testimony it reminds me of one time in Baltimore, the area I 
represent, and I brought in someone to a high school class who 
had sold drugs and used drugs and had gone to prison, had been 
through a lot, and the interesting thing was about 6 or 7 
months later I was talking to the teacher, just ran into her in 
the supermarket, and I said, ``Do you think we had any 
impact?'' And she said, ``The kids were so impressed they 
wanted to try it.'' It was very interesting. Here I was 
thinking that I was actually doing something to prevent and 
they again thinking it will never happen to me, that is the 
exception to the rule, they would take the part, for example, 
in your presentation when you said how you felt in the 
beginning. And I want to make it very clear that I admire you 
all for coming, your testimony is very important, but a lot of 
these kids took the glamour of the piece and just discarded the 
rest of it based on, well, that is not going to happen to me. 
We struggle so much.
    Ms. Smith. It is so hard. But I have the exact kind of 
opposite experience with kids saying that it is the scare 
tactics that do not work. And you have to be truthful and say 
it does make you feel amazing because it is a chemical that has 
a reaction and it does make you feel all these things, but you 
have to include all of the awful things that it forces you to 
live with, if you are lucky enough to make it.
    Mr. Cummings. Just one question, Ms. Patton. The thing that 
you said just kind of struck me was when you said there were 
three--I forgot how you said it.
    Ms. Patton. I lost Kelley three times.
    Mr. Cummings. Yes. And one of them, the second one was you 
talked about her selling. How did that come to your attention? 
Did you find out about it after----
    Ms. Patton. After. I did not even know she was doing drugs 
before the police came to my door to tell me she had died. You 
feel like you have just been slapped in the face. And then I 
thought it must have been a car accident, and I said, ``How?'' 
And the police officer said it was an overdose of ecstasy. Well 
then I was faced with well what is that. And again it is 
another blow. They said it was a very popular drug among young 
kids, it was a club drug. I mean, I absolutely knew nothing 
about ecstasy or club drugs before the police came to my door.
    But it was afterwards, a couple of weeks after she died 
that they told me. They did not lay all that on me then, they 
told me a couple of weeks afterward that she was involved in 
selling it. But that is the grasp that drug has on people. It 
is the seductive grasp that drug has.
    Mr. Cummings. Talking to parents, do you get the impression 
that maybe parents just want to avoid this subject and just 
sort of hope that----
    Ms. Patton. Hoping it is going to go away? Yes, and I was 
one of those. I asked her, ``Do you do drugs?'' And she said, 
``I've tried some things, I've smoked some marijuana. That's 
it.'' And that was it. Our drug talk lasted 30 seconds because 
I was one of those parents that thought it could not possibly 
happen to my kids. She grew up in an affluent family and I 
never did drugs, she knew my stand and my feeling on drugs, so 
I guess I thought that will just rub off on her and she will 
never try drugs. Well, I was sadly mistaken. We as parents 
cannot take that cavalier attitude thinking that just because 
we did not do it they will not. There is just so much 
temptation out there.
    I really feel it starts at home. And if your kids sit there 
and roll their eyes when you are talking to them about it, they 
are still listening. Just as an example, my young daughter was 
down with her dad for the summer and he never asked her where 
she was going or told her to come home at a certain time. She 
is 14. She would just say good-bye and he would never say where 
are you going and be back at a certain time. She came home and 
she said, ``You know, mom, I just don't think dad cares about 
me.'' And I said, ``Yes, he does.'' She said, ``Well he never 
asks where I go and he never tells me to come home at a certain 
time. I know you care because you tell me to come home at a 
certain time.'' And I think that is the same about drugs.
    You care about your kids and you have got to sit down and 
talk to them about the drugs. You have got to be knowledgeable 
and know what you are talking about, and there are so many ways 
to become knowledgeable nowadays that there is no excuse that 
people cannot. But you have to take the time. I know people 
have two jobs and blended families and what have you, but it 
has got to be a priority. Parents have to realize that it 
starts at home. I think some parents also feel that, well, the 
schools will do it. I do not have to do it, the schools will do 
it. Well, yes, the schools will, hopefully, not guaranteed, 
perhaps touch on the subject. But we cannot rely solely on the 
schools. Schools cannot solely rely on parents. As I said in my 
statement, it takes a village to raise a child. And this is 
what it is going to take for kids to stay away from drugs.
    And you were mentioning about the commercials. I know the 
Office of National Drug Control Policy did all the commercials, 
John Walters is the Drug Czar, it was not his tenure, but they 
said it was a bust. They said it was an absolute bust. I had 
the distinct privilege of meeting with President Bush a couple 
of months ago and he was telling me about it and he said that 
we wasted so much money on those commercials because they felt 
that kids were going out and trying the drugs after looking at 
those commercials. I think you have to be very careful what 
commercial you put up there, that it not somehow instead make 
them curious as to, well, what is all the big hullabaloo about, 
let's go try it and find out.
    Mr. Souder. We need to say for the record that actually is 
not true. They were disappointed that they did not make more 
progress. And we are trying to make the program more effective. 
But the problem in this whole field is that would be equivalent 
to if you would talk to a high school and then it was found out 
that some of those kids had used drugs and holding it 
accountable to your presentation. There are so many different 
aspects, of what is going on simultaneously, in fact, even the 
drug data itself in different subgroups. We have had a lot of 
hot debate how to do it. It is not as effective and we are 
looking at how to make the things more effective.
    But we need to say for the record we have mixed studies on 
DARE, in some communities it has worked extremely well, in 
others it has not. We have mixed studies on different treatment 
programs. Frankly, there is mixed data on all this kind of 
stuff. That is what we are wrestling with of how to do it. Do 
you try to cover more people for shorter periods, or fewer 
people for longer periods, which type of treatment programs.
    We have had in front of this committee, I have been in 
Congress since 1994 and have been on this subcommittee, we have 
had unbelievably compelling testimony from mothers, spouses who 
have been beaten by their spouses on marijuana, from kids who 
come forth. I remember one in Phoenix where the mom was laying 
the cocaine on the table for the kids to snort after they came 
home from school. And in Florida, a young son with his dad, who 
was an elected official, and the son said he was basically 
trying to get his dad's attention. His dad broke down and cried 
in the hearing, and it was the first time he had gone public as 
an elected official in that community. Really powerful 
testimony.
    It is not like we have not had the Partnership for Drug 
Free America--these ads are difficult to do. Those are some of 
the smartest ad guys in the country. They have been trying to 
research, to figure out how effectively to do it. We have been 
going back and forth between do you scare, do you acknowledge, 
don't you acknowledge. If we acknowledge, we have the problem 
you are talking about, do we get somebody interested who was 
not previously. If we do not acknowledge, are we being 
artificial. If we do not scare, they do not understand the 
seriousness of the consequences. But if we do scare, those who 
have not had that----
    Ms. Patton. It is a tough nut to crack.
    Mr. Souder. We really appreciate your testimony today 
because what we know is, it is almost like every campaign, 
after you do something for a while, unless you freshen it up, 
it is not going to work. And we are very disappointed with the 
national ad campaign results. It is not what we had hoped to 
get. We are very disappointed in our interdiction program. We 
are very disappointed in what is happening in Colombia. We are 
disappointed that so many people in treatment wind up back in 
treatment. I have never met an addict who has not been in 
multiple treatment programs. That does not mean we give up on 
treatment. It does not mean we give up on interdiction. It does 
not mean we give up on drug free schools. It does not mean we 
give up on ad programs. What we are looking for and what you 
are participating in today is how do we make this stuff more 
effective. And it is an honest study and we need everybody's 
input.
    I want to see if Ms. Davis has anything. We have a vote 
called.
    Ms. Davis of Virginia. Thank you, Mr. Chairman, I will make 
it sort of brief. I think you have just sort of put it all in a 
nutshell of how there is no silver bullet for this problem. It 
takes a lot of different avenues to try and reach these kids. I 
do not think we can give up on any of the ways that we are 
trying to stop the drug abuse and to save our kids.
    Ms. Patton, I understand what you are saying about it 
starts at home. But even if you are a parent who sits and talks 
to your child, that is not the silver bullet that says that 
child will not try it. And Ms. Smith, I think your going out 
and talking to the kids is--my own son turned his life around. 
I felt he was doing some sort of drugs and I talked to him, 
talked to him, and talked to him until I was blue in the face. 
As a parent, I did not know how to reach him. He constantly 
denied it and I had no proof. He has since, 4 years ago, turned 
his life around and now he is going into the ministry and he is 
out ministering to other kids, which is fantastic. So prayer 
saved him. Now I do not think we can legislate prayer, but 
prayer did work with him.
    Ms. Smith, you said we need a whole new wave of education. 
So you are saying that the ``Just Say No'' the DARE program did 
not work with you or you did not have that in your school?
    Ms. Smith. I did not have that in my school.
    Ms. Davis of Virginia. How can we do a whole new wave of 
education in schools? What is your suggestion there? I mean, we 
cannot go out and get, we cannot clone you. I do not support 
cloning, we are not going to pass that. So what would you 
suggest?
    Ms. Smith. I guess it is just I encourage people who e-mail 
me and tell me their stories so much worse than mine and so 
much more devastating, and if they are able to they ask me what 
can I do. Look, I have seen your story posted, what can I do or 
how can I be heard. I say go out right where you are, your 
local area, go to the church, go to a local school, go wherever 
and tell your story. Just start out. I mean, I went to a 
juvenile detention center 2 weeks after I got out of the 
hospital because I just needed to. That is when I realized, 
wow, all of these guys who are in there for murder, for selling 
drugs, they had already pretty much hit rock bottom and they 
were listening to me and they were asking me questions. And I 
realized that, wow, I think this could work.
    I think the more e-mails I get, the more people call me and 
say can you come here, can you come there, I figure maybe 
something is working and something is clicking in a lot of 
young people's minds, maybe not all of them.
    It is kind of ironic. I was contacted by Dance Safe and The 
Partnership for a Drug Free America around the same time after 
my MTV show aired, both asking me to work for them, to 
volunteer for them. Emmanuel, the head of Dance Safe, said if 
you want to fly out here and put some testing kits together, I 
will put you on a salary. And then the Partnership called and 
said how about coming here and telling your story, putting it 
on a Web site, not getting paid a thing, just doing it. I was 
like, OK, I think that one sounds better. And a lot of young 
people look to this Dance Safe, too. Like you were saying, 
there is just no one silver bullet.
    Ms. Davis of Virginia. You have to try everything. If you 
save one, you are successful.
    Ms. Patton. Exactly. And you keep plugging away and look at 
the big picture. For me at least, it is difficult at times to 
go out there and talk. Two days before Kelley's birthday I had 
a big 500-kid presentation and I thought I have got to look at 
the bigger picture, I am helping kids here and I have got to 
overcome the way I am feeling right now, as hard as it was.
    Mrs. Jo Ann Davis. I thank you all for coming and 
testifying. That is all I have, Mr. Chairman.
    Mr. Souder. Ms. Smith, you said in your original testimony 
that you had not seen your friends where you had your overdose. 
Have they been affected by your comments, and why not?
    Ms. Smith. You know, no one contacted--with ecstasy, it is 
a very tribal drug, too. Kids doing it, not just kids, anyone 
doing it, they just feel a real sense of community, a sense of 
family. That is what I felt with ecstasy too, that with all of 
these people gathered, we came together and I felt like I was a 
part of something, that I was in some sick way doing something 
better together with other people. And your question was?
    Mr. Souder. Have they changed? Has what happened to you 
impacted them?
    Ms. Smith. When I left that afternoon and I went home to 
Pennsylvania never to return to that apartment, I returned to 
New York City, and no one called me while I was in the 
hospital, no one contacted me. None of those friends that were 
just like hugging and kissing and giving you massages, not a 
trace of them anywhere to be found. To this day I have not 
talked to one of them. I never made an effort to kind of go 
back and talk. It was just they are still in the same life, 
they are still going to the clubs, they are still doing the 
same thing.
    Mr. Souder. Why wouldn't your life have scared them?
    Ms. Smith. Why didn't it scare them?
    Mr. Souder. Yes. I mean, it is a profound question we are 
trying to figure out, and that is to some degree our prevention 
programs are oriented toward people who are not in the 
immediate temptation stage. We are trying to brace them before 
they get there. Then even if we brace them, when they actually 
get in the temptation it is like they forget everything they 
heard beforehand. Your friends, you look at it, you say it is 
not going to happen to me, I am different. And one of our big 
challenges is what can we do that penetrates while you are in 
your period of risk, and your friends are still in the period 
of risk, the people you are talking to may or may not be 
predominantly, and the question is how do we reach that group?
    Ms. Smith. Very good question. I was thinking, wow, they 
are all going to change because of what happened to me being so 
close, being what I thought was close friends during that time. 
They were almost--it scared them in a lot of ways I think 
because I was so vocal about what happened to me and I was on 
MTV. They were scared. They were scared that I was going to say 
something, like I was going to go on a national television show 
and hold up their pictures and say that these guys--that kind 
of thing. So I think right away the wall went up. They did not 
want to talk to me because all of a sudden I went from being in 
a dingy apartment to you know.
    Mr. Souder. Well thank you very much for your testimony. We 
appreciate all the work that Phoenix House does all over the 
country. We need more treatment programs. I understand your 
basic point about the length of time, that these 8 week 
programs are why we have a lot of repetitiveness, because it is 
complex as to why the people get it and trying to figure out 
what gives the best iron will before it happens. But how to 
reach that at-risk group and how they will not fall back are 
the incredible challenges we have, and to keep the supply down.
    So it has been enlightening. It has been enlightening on 
ecstasy and the particular allure. I hope that you will each 
keep up your aggressive efforts at the grassroots level.
    With that, we stand adjourned.
    [Whereupon, at 3:05 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8329.034

[GRAPHIC] [TIFF OMITTED] T8329.035

[GRAPHIC] [TIFF OMITTED] T8329.036

[GRAPHIC] [TIFF OMITTED] T8329.037

[GRAPHIC] [TIFF OMITTED] T8329.038

[GRAPHIC] [TIFF OMITTED] T8329.039

[GRAPHIC] [TIFF OMITTED] T8329.040

[GRAPHIC] [TIFF OMITTED] T8329.041

[GRAPHIC] [TIFF OMITTED] T8329.042

[GRAPHIC] [TIFF OMITTED] T8329.043

[GRAPHIC] [TIFF OMITTED] T8329.044

[GRAPHIC] [TIFF OMITTED] T8329.045

[GRAPHIC] [TIFF OMITTED] T8329.046

[GRAPHIC] [TIFF OMITTED] T8329.047

[GRAPHIC] [TIFF OMITTED] T8329.048

[GRAPHIC] [TIFF OMITTED] T8329.049

[GRAPHIC] [TIFF OMITTED] T8329.050

[GRAPHIC] [TIFF OMITTED] T8329.051


</pre></body></html>
